Bursch Law PLLC

JOHN J. BURSCH
616.450.4235
jbursch@burschlaw.com

Attorney at Law
August 17, 2020
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543-0001
Re:

No. 19-1137, Tennessee, by and through the Tennessee General
Assembly, et al. v. U.S. Department of State, et al.

Dear Mr. Harris:
Petitioner respectfully requests that the Court delay distribution of the
petition for writ of certiorari until September 16, 2020, for consideration at the
Court’s conference on October 9, 2020. The petition for writ of certiorari was filed
on March 13, 2020, and was placed on the Court’s docket on March 16, 2020. After
the Court granted three requests to extend the response deadline, Respondents’
brief in opposition was filed on August 14, 2020. Pursuant to Supreme Court Rule
15.5, absent the requested delay, the petition, brief in opposition, and reply brief
would be distributed on September 2, 2020.
Counsel for Petitioner seeks a 14-day extension due to the restrictions
currently being experienced due to COVID-19 and the press of numerous other
litigation deadlines. Among many other matters, Petitioner’s counsel has the
following upcoming litigation deadlines:
•

A supplemental brief on remand in the United States District Court for
the Northern District of New York on August 21, 2020 (New Hope
Family Services v. Poole, No. 5:18-cv-1419);

•

A summary-judgment hearing in the United States District Court for
the Western District of Michigan on August 25, 2020 (Taylor v. Barnes,
No. 1:19-cv-00670);

•

An opening brief in the United States Court of Appeals for the Eighth
Circuit on August 28, 2020 (Thayer v. Planned Parenthood of the
Heartland, No. 20-2151);

•

A reply brief in the United States Court of Appeals for the Ninth
Circuit on August 31, 2020 (Calvary Chapel Dayton Valley v. Sisolak,
No. 20-16169);

19-1137
Tennessee v U.S. Department of State
Page 2
•

An opening brief in the United States Court of Appeals for the Ninth
Circuit on September 2, 2020 (Cedar Park Assembly of God of
Kirkland, Washington v. Kreidler et al., No. 20-35507);

•

A significant response brief in the United States District Court for the
Southern District of Iowa on September 3, 2020 (Thayer v. Planned
Parenthood of the Heartland, No. 4:11-cv-00129-JAJ-CFB);

•

A merits brief and joint appendix in this Court on September 7, 2020
(Uzuegbunam v. Preczewski, No. 19-968);

•

A reply brief in the United States Court of Appeals for the Sixth
Circuit on September 7, 2020 (Meriwether v. The Trustees of Shawnee
State University et al., No. 20-3289); and

•

A reply brief in this Court in support of a petition for certiorari on
September 15, 2020 (Baker v. Planned Parenthood South Atlantic, et
al., No. 19-1186).

Respondents do not object to this extension.
For these reasons, Petitioner requests that the Court delay distribution of the
petition for writ of certiorari until September 16, 2020.
Respectfully Submitted,
John J. Bursch
John J. Bursch
Counsel for Petitioner
Service List:
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

